                               CLOSEOLTT of CASE M-96110041




        This case was initiated in November 1996, after a university representative1
called OIG to discuss their recent inquiry into potential misconduct by a professor2
("subject"). The university initiated an inquiry after the U.S. Fish and Wildlife Service
("USFWS")' notified them of his alleged violations of federal regulations concerning
the import/export permits and endangered species permits (Convention on
International Trade in Endangered Species (CITES) permits). OIG has jurisdiction in
this case because one of the allegedly illegal accessions was made using NSF funds.4
Having determined that the allegations had substance, we deferred the case to the
university to see if the subject's actions were a significant deviation to accepted
practices.

        The university conducted an investigation and determined that his actions did
not rise to the level of misconduct in science. They agreed that the subject violated
federal regulations, but concluded his actions were not misconduct because of
"mitigating" circumstances. In brief, they stated that he had made significant efforts to
obtain the permits, but bureaucratic delays within foreign agencies and the
"complexity of the laws, rules, and regulations that govern the importation of
biological specimens" preventing him from obtaining the permits.

        The USFWS entered into a settlement agreement with the subject, and he was
required to pay a $5,000 fine, t o publish an article on procedures for obtaining
import/export permits, to provide 50 hours of community service in education, and to
refrain from acting as a collection director or from participating in any specimen
collection projects for 1year.

       We conclude that his actions were highly unethical in light of his conservation-
based research, but believe the actions taken by the USFWS and the university will
prevent him and potentially others from similar acts in the future. We disagree with
the university that his actions were mitigated by the complexity of the permitting
requirements, noting that his prior interactions with the USFWS made him fully
aware of the requirements. We are sending a letter to the subject describing our

' [redacted].
  [redacted].
3
  O n [redacted] USFWS sent a letter to [redacted] including draft notices of violation and a notice of
investigation to the university for several incidents of the Endangered Species Act and the CITES
violations. The USFWS has filed charges against the subject for similar acts, which resulted in
settlements in [redacted]. According to the USFWS investigator associated with this case, these violations
are fairly common among researchers.
  The award, [redacted], was entitled "[redacted]." Dr. [redacted] was the PI for the project; he received
$[redacted]for [redacted] of support.


Closeout                                       Page 1 of 2
                         CLOSEOUT of CASE M-96110041

concerns about the unethical nature of his actions, and are working in cooperation
with NSF program staff in developing administrative recommendations to prevent
similar problems in the future.

       This investigation is closed, and no further action will be taken.


       CC: IG, Integrity




Closeout                               Page 2 of 2
